                                                                                  OIG Recovery Act Monthly Report


Monthly Update Report Data (sheet 1 of 5) Version 5.0a
                   Reporting OIG: Department of State - OIG
               Month Ending Date: 10/31/2011

                                                                Recovery Act Funds Used on Recovery Act Activity
             Agency / Bureau         Recovery Act TAFS        Award Type       US Indicator       Total Obligations     Total Gross         Direct or           Ordering TAFS
No.                                                                                                                       Outlays         Reimbursable
      Department of State - OIG    (19-0530 2009 \         Contracts and          Y - US              $27,070            $27,070
                                   2010) State - OIG -    Orders (including
                                   Recovery Act            modifications)
 1                                                                                                                                      Direct            N/A
      Department of State - OIG    (19-0530 2009 \         Contracts and          Y - US             $129,409           $129,409
                                   2010) State - OIG -    Orders (including
                                   Recovery Act            modifications)
 2                                                                                                                                      Direct            N/A
      Department of State - OIG    (19-0530 2009 \         Contracts and          Y - US              $17,129            $17,129
                                   2010) State - OIG -    Orders (including
                                   Recovery Act            modifications)
 3                                                                                                                                      Direct            N/A
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US               $94,502            $94,502
                                   2010) State - OIG -    Orders (including
 4                                 Recovery Act           modifications)                                                                Direct            N/A
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US              $118,799            $62,877
                                   2010) State - OIG -    Orders (including
 5                                 Recovery Act           modifications)                                                                Direct            N/A
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US               $95,137            $54,949
                                   2010) State - OIG -    Orders (including
 6                                 Recovery Act           modifications)                                                                Direct            N/A
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US              $148,281           $148,281
                                   2010) State - OIG -    Orders (including
 7                                 Recovery Act           modifications)                                                                Direct            N/A
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US               $88,574            $76,737
                                   2010) State - OIG -    Orders (including
 8                                 Recovery Act           modifications)                                                                Direct            N/A
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US               $72,249            $46,520
                                   2010) State - OIG -    Orders (including
 9                                 Recovery Act           modifications)                                                                Direct            N/A
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US              $132,326            $66,799
                                   2010) State - OIG -    Orders (including
10                                 Recovery Act           modifications)                                                                Direct            N/A
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US               $95,137            $49,332
                                   2010) State - OIG -    Orders (including
11                                 Recovery Act           modifications)                                                                Direct            N/A
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US              $167,602           $164,528
                                   2010) State - OIG -    Orders (including
12                                 Recovery Act           modifications)                                                                Direct            N/A
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US              $467,133           $467,133
                                   2010) State - OIG -    Orders (including
13                                 Recovery Act           modifications)                                                                Direct            N/A
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US               $16,724            $16,724
                                   2010) State - OIG -    Orders (including
14                                 Recovery Act           modifications)                                                                Direct            N/A
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US               $17,601            $17,601
                                   2010) State - OIG -    Orders (including
15                                 Recovery Act           modifications)                                                                Direct            N/A
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US                 $73                $73
                                   2010) State - OIG -    Orders (including
16                                 Recovery Act           modifications)                                                                Direct            N/A
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US               $20,536            $20,536
                                   2010) State - OIG -    Orders (including
17                                 Recovery Act           modifications)                                                                Direct            N/A
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US               $11,706            $11,706
                                   2010) State - OIG -    Orders (including
18                                 Recovery Act           modifications)                                                                Direct            N/A

                                                                              Non-Recovery Act Funds Used on Recovery Act Activity
             Agency / Bureau           FY 2009 Non-         Total FY 2009     Total FY 2009     FY 2010 Non-Recovery   Total FY 2010      Total FY 2010   FY 2011 Non-Recovery     Total FY 2011   Total FY 2011
No.                                  Recovery Act TAFS       Obligations      Gross Outlays           Act TAFS          Obligations       Gross Outlays         Act TAFS            Obligations    Gross Outlays
      Department of State - OIG    (19-0529 2009) State             $59,536           $59,536 (19-0529 2010) State -         $105,056            $105,056 (19-0529 2011) State -         $89,233         $89,233
 1                                 - OIG                                                      OIG                                                         OIG
 2
 3
 4
 5
 6
 7
 8

                                                 Non-Recovery Act Funds Used on Recovery Act Activity
             Agency / Bureau           FY 2012 Non-         Total FY 2012     Total FY 2012     FY 2013 Non-Recovery   Total FY 2013      Total FY 2013
No.                                  Recovery Act TAFS       Obligations      Gross Outlays           Act TAFS          Obligations       Gross Outlays
      Department of State - OIG    (19-0529 2012) State             $89,419           $89,419
 1                                 - OIG
 2
 3
 4
 5
 6
 7
 8



                                                                                                                                                  Copy of State OIG Monthly Report October 2011.xls Page 1
                                                                 OIG Recovery Act Monthly Report


               Monthly Update Report Data (sheet 2 of 5) Version 5.0a
                      Reporting OIG: Department of State - OIG
                 Month Ending Date: 10/31/2011


                                                                                   Fiscal Year 2009

                                                Monetary Results -Investigations             Monetary Results - Audits, Inspections, Reviews*


                                                   Recoveries (FY 09):                            Questioned Costs (FY 09):



                                          Forfeitures/Seizures (FY 09):                          Unsupported Costs (FY 09):



                                                                                               Recommendations for Better
                                            Estimated Savings (FY 09):
                                                                                                     Use of Funds (FY 09):




                                                                                   Fiscal Year 2010
                                                Monetary Results -Investigations             Monetary Results - Audits, Inspections, Reviews*


                                                   Recoveries (FY 10):                            Questioned Costs (FY 10):



                                          Forfeitures/Seizures (FY 10):                          Unsupported Costs (FY 10):



                                                                                               Recommendations for Better
                                            Estimated Savings (FY 10):
                                                                                                     Use of Funds (FY 10):


                                                                                   Fiscal Year 2011
                                                Monetary Results -Investigations             Monetary Results - Audits, Inspections, Reviews*


                                                   Recoveries (FY 11):                            Questioned Costs (FY 11):



                                          Forfeitures/Seizures (FY 11):                          Unsupported Costs (FY 11):



                                                                                               Recommendations for Better
                                            Estimated Savings (FY 11):
                                                                                                     Use of Funds (FY 11):



                                                                                   Fiscal Year 2012

                                                Monetary Results -Investigations             Monetary Results - Audits, Inspections, Reviews*


                                                   Recoveries (FY 12):                            Questioned Costs (FY 12):



                                          Forfeitures/Seizures (FY 12):                          Unsupported Costs (FY 12):



                                                                                               Recommendations for Better
                                            Estimated Savings (FY 12):
                                                                                                     Use of Funds (FY 12):


                                                                            Cumulative Since 2/17/2009
                                                Monetary Results -Investigations             Monetary Results - Audits, Inspections, Reviews*


                                             Recoveries (cumulative):      $0.00             Questioned Costs (cumulative):          $0.00


                                                  Forfeitures/Seizures
                                                                           $0.00            Unsupported Costs (cumulative):          $0.00
                                                         (cumulative):



                                                                                               Recommendations for Better
                                      Estimated Savings (cumulative):      $0.00                                                     $0.00
                                                                                                 Use of Funds (cumulative):




* These data include Federal Audits, Inspections, and Reviews only                                                            Copy of State OIG Monthly Report October 2011.xls Page 1
                                                                                                         OIG Recovery Act Monthly Report


Monthly Update Report Data (sheet 3 of 5) Version 5.0a
        Reporting OIG: Department of State - OIG
    Month Ending Date: 10/31/2011

                                                  FTE Working on Recovery
                                                                                                                                                                                    Testimonies:
      Fiscal Year              2009               2010              2011                      2012             Cumulative
       Newly Hired FTE
                               0.00               0.00                 0.00                   0.00                 0.00                                                     Provided (monthly):        0
         (cumulative):

FTE Funded by Recovery
                               0.08               3.52                 2.52                   0.00                 6.12                                                   Provided (cumulative):       0
 Act Funds (cumulative):

     FTE Not Funded by
    Recovery Act Funds         0.50               0.65                 0.55                   0.00                 1.70
          (cumulative):

                                                                                                                                                                        Audits / Inspections / Evaluations /
               Complaints                                Whistleblower Reprisal Allegations                                        Investigations                                                                      Training / Outreach
                                                                                                                                                                                      Reviews
             Monthly Data                                          Monthly Data                                                    Monthly Data                                    Monthly Data                           Monthly Data

                                                                                                                                                                                                                       Training Sessions
              Received:         0                                         Received:            0                                      Opened (this month):          0     Initiated (this month):      0                                     0
                                                                                                                                                                                                                              Provided:

                                                                                                                                     Active (as of the end of           In Process (as of the end
                                                                         Accepted:             0                                                                    1                                  5            Individuals Trained:     0
                                                                                                                                                 the month):                      of the month):
                                                                                                                                                                                Completed Final
                                                                                                                                                                                                                      Hours of Training
                                                                                                                                     Closed without Action:         0           Published Work         1                                     0
                                                                                                                                                                                                                             Provided:
                                                                                                                                                                                        Products:
                                                                                                                                                                                 Priority Interim
                                                                                                                                                                                                                     Outreach Sessions
                                                                                                                                      Prosecution Declined:         0           Published Work         0                                     0
                                                                                                                                                                                                                           Conducted:
                                                                                                                                                                                        Products:

                                                                                                                                    Referred for Alternative                  Unpublished Work
                                                                                                                                                                    0                                  0
                                                                                                                                                 Resolution:                         Products*:

                                                                                                                                                Convictions,
                                                                                                                                         Settlements, Pleas,        0              QCRs Issued:        0
                                                                                                                                                 Judgments:

   Cumulative Data Since 2/17/2009                       Cumulative Data Since 2/17/2009                                  Cumulative Data Since 2/17/2009               Cumulative Data Since 2/17/2009         Cumulative Data Since 2/17/2009
                                                                                                                                                                              Completed Final
                                                                                                                                                                                                                       Training Sessions
              Received:         4                                         Received:            1                                     Closed without Action:         0         Published Work       21                                        2
                                                                                                                                                                                                                              Provided:
                                                                                                                                                                                     Products:
                                                                                                                                                                               Priority Interim
                                                                         Accepted:             0                                      Prosecution Declined:         0         Published Work        1               Individuals Trained:     35
                                                                                                                                                                                     Products:

                                                                                                                                    Referred for Alternative                  Unpublished Work                        Hours of Training
                                                                                                                                                                    0                                  0                                     55
                                                                                                                                                 Resolution:                         Products*:                              Provided:

                                                                                                                                                Convictions,
                                                                                                                                                                                                                     Outreach Sessions
                                                                                                                                         Settlements, Pleas,        0              QCRs Issued:        0                                     5
                                                                                                                                                                                                                           Conducted:
                                                                                                                                                 Judgments:

                                                                                                                                          Cumulative Total:         0         Cumulative Total:       22



             *These work products were not published because they contain proprietary or other sensitive information that cannot be made available to the public.                              Copy of State OIG Monthly Report October 2011.xls Page 1
                                                   OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 4 of 5) Version 5.0a
      Reporting OIG: Department of State - OIG
  Month Ending Date: 10/31/2011

       No.                      OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
                     Issued final report on subrecipient compliance with ARRA reporting requirements: Audit of International Boundary and
         1           Water Commission Construction Contract with S&B Infrastructure, Inc., Using Funds Provided by the American Recovery
                     and Reinvestment Act (AUD/CG-11-16).
         2           Closed out three ARRA-funded contracts.
         3           Continued review and revision of draft reports of audits conducted by an IPAs on various ARRA-funded projects.
         4
         5
         6
         7
         8
         9
        10

       No.                               OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for Next Three Months)
        1            Issue draft and final reports on five remaining Recovery Act audits.
        2            Close out remaining ARRA-funded contracts.
        3
        4
        5
        6
        7
        8
        9
       10




                                                                                               Copy of State OIG Monthly Report October 2011.xls Page 1
                                                           OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 5 of 5) Version 5.0a
  Reporting OIG: Department of State - OIG
   Month Ending 10/31/2011

                                                                     TRAINING ACTIVITIES
                                                                                                                                          Hours of
                                                                                    Training                   Length of                  Training
                                                 Target                                             Date of                 Number of                    Cost of
      No.              Type of Training                       Title of Training   Location (City,               Training                 Provided
                                                Audience                                            Training               Participants                  Training
                                                                                      State)                    (hours)                   (length x
                                                                                                                                        participants)
      1                                                                                                                                             0
       2                                                                                                                                            0
       3                                                                                                                                            0
       4                                                                                                                                            0
       5                                                                                                                                            0
       6                                                                                                                                            0
       7                                                                                                                                            0
       8                                                                                                                                            0
       9                                                                                                                                            0
      10                                                                                                                                            0
      11                                                                                                                                            0
      12                                                                                                                                            0
      13                                                                                                                                            0
      14                                                                                                                                            0
      15                                                                                                                                            0
                                                                                                                TOTAL                 0             0

                                             OUTREACH ACTIVITIES
                                                Number of
                                              Organizations                         Outreach
                    Organization to which                     Description of                         Date of
      No.                                     Represented                         Location (City,
                     Outreach Provided                          Outreach                            Outreach
                                               at Outreach                            State)
                                                 Session
      1
      2
      3
      4
      5
      6
      7
      8
      9
      10


                                                                                                        Copy of State OIG Monthly Report October 2011.xls Page 1
